m

C=J

IV3H

In the Supreme Court of the United State^LED—
MAR 2 0 2021
OFFICE OF T

Erik Jimenez, petitioner, pro se
-VsThe State of Texas, respondent
On Petition for Writ of Certiorari to the
Texas Court of Criminal Appeals

Petition for Writ of Certiorari

Erik Jimenez, pro se
20826 Fox Trot
Humble Tx. 77338
EmaiPErik Jimenez74@gmail.com

1«

;1

Question Presented for Review
l) Whether the trial court admissability of evidence
of a later date and not for what defendant was on trial
was an abuse of discretion under Texas rule of
evidence 404(b).

1

List of Parties
All parties appear in the caption of the case on the
cover page.

••

11

Table of Contents
Question Presented.....................

1

List of Parties..................................

11

••

•••

Table of Contents ........................... .

m

Table of Citations......... .....................

IV

Prayer............................ .

1

Opinions Below..............................
Jurisdiction........... .. ..............

1
1-2

Federal Jurisdiction.........................

2

Contitutional and Statutory Provision

2

Statement of the case ......

3

Reason for Granting the writ

.. 5-14
15

Conclusion
Appendix.

16

• i i

111

Table of Citations
PAGE

CASES
MartinV. State
173 S.W.3d (Tex. Crim. App.1996)

13

Mayes V. State
816 S.W.2d(Tex.Crim.App.l99l)

6

Montgomery V. State
810 S.W. 2d (Tex. Crim. App.1990)

12

Prieto V State
879 S.W 2d (Tex. App.-Houston[l4th Dist]l994) 13
Saenz V. State
843 S.W. 2d (Tex. Crim.App.1992)

5

Taylor V. State
548 S.W. 2d (Tex.Crim.App.1992)

11

Statues & Rules
Tex. Peal code Sec.43.04(a)

13

Tex.R. Crim. Evid. 404(b)

14
1

28.U.S.C. 1254
IV

Prayer
Petitioner Erik Jimenez respectfully prays that a
writ of certiorari be granted to review the judgment
of the Texas 14th Court of Appeals issued
Dec.31,2019.
Opinions
The Judgment and opinion of the 14th Court of
Criminal Appeals is reported as Jimenez V. State
No.l4-l8-00364-CR(Tex.App.Dec.31,2019)The
Opnion of the 14th Texas Court of Criminal Appeals
is incorporated into the Appendix herein.
Jurisdiction
Petitioner Erik Jimenez invokes this court
jurisdiction under 28 U.S.C. § 1257, having timely
filed this petition for writ of certiorari within 150
days of the Texas Court of Criminal Appeals Judgement.

1

Judgment was entered Oct. 21,2020.
The basis for Federa Jurisdiction
This case raises questions about the due process and equal
protection clauses about the 14th amendment to the United
States constitution.

Constitutional and Statutory Provision Involved
This case involves the 14th Amendment to the United
States Constitution, which providesSection 1. “All citizens of the United States are citizens of
the states in which they reside. No state shall make or
enforce any, law which shall abridge the priviliges or
immunities of citizens of the United State; nor shall any state
deprive any person of life,liberty, or property, without due
process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.”

2

Section 5. “ The congress shall have power to enforce by
appropiate legislation the provisions of this article”.
STATEMENT OF THE CASE
A. Complaint
A complaint filed June 23, 2016 charged
Jimenez with Aggravated promotion of prostitution. CR6. The
“prostitution enterprise” was alleged to involve more than
one prostitute “including Cindy Cartillo and Sonya Moreno”.
The date of offense was specified as “June 22,2016”.
B. Jury Trial
Voir dire began April 23,2018.2RR
C. Verdict and Punishment
The state rested on April 26, 2018,5RR.143. On April 26,2018
The Jury returned a Guilty verdict and assess punishment at
confinement in the Institutional Division of the Texas depart
ment of Criminal Justice for eight years and a 1,000 dollar
Fine.

3

D. Appeal
On Appeal petitioner challenged (l) Whether the State
Adduced sufficient evidence to predicate petitioners
conviction.
(2) Whether the District Court reversibly erred in
overruling Jimenez 404(B) objection to so-called “counter
-surveilance”in Oct. 2016 when the indictment trained on
events in June 2016
On Dec. 31,2019 the 14th court of Appeals Affirmed
petitioner’s conviction and release a memorandum opnion
along with a concurring opnion.
Petitioner Filed a petition for discretionary review on
May 29,2020 which was refused on June 24,2020.
On September 25,2020 petitioner files for a rehearing in
The Texas Courts of Criminal Appeals which was denied on
Oct. 21,2020

4

Reasons For Granting the Writ
In this cse The State Court prosecutor impermissibly
focused on the unrealed incident of October 2016 that was
characterized as “counter-surveillance ”, over a proper
404(b) objection, when the indictment trained on events in
June 2016 some 4 months prior . -The bad characterization of
those eventsleft the petioner to defend himself over other
crimes and bad acts which he was not on trial for and had no
revelance beyond a tendency to show character conformity
evendence.
In Saenz V. State , 843 S.W. 2D (TEX.CRIM.APP. 1992) the
Appeals Court Stated that evidence of other crimes , wrongs,
or acts may create”unfair prejudice” if under the
circumstances a jury would be more likely to draw an
impermissible character conformity inference than the
permissible inference for which the evidence is relevant, or

5

if it otherwise distracts the Jury from the specifically charged
offense and invites them to convict on a moral or emotional
basis rather than a reasonedresponse to the relevant
evidence.
The Texas appeals court has also noted the evidence of
a defendants bad character traits possess such a devastating
impact on a Jury’s rational disposition towards other
evidence, and is such poor evidence of guilt, that an
independent mandatory rule was created expressly for its
exclusion, see rule 404(b); Mayes V. State, 816 S.W. 2d
(Tex. Crim. App .1991)
During the state’s direct examination of Officer
Nichols, the prosecutor approached the bench and advised
that the trial court and defense counsel that the state would
like to develop testimony concerning the fact that the police
conducted a second undercover, in-call investigation at the
Hillcroft location on Oct. 19, 2016, wherein officers would

6

testified that they observed appellant at the scene, and that
it appeared to officer Brian Nichols that appellant was con
ducting counter-surveillance, which they described as an
effort to detect covert lawenforcement operatives.
Defence councel objected that appellant’s ientitiy was
not an issue in the case, and provideing up an extraneous on
something that’s not an issue,was highly pejudicial, and
extremely misleading and confusing, to the jury, and so the
states proposed extraneous-offense evidence was irrelevant,
and highly prejudicial.
The Trial court agreed that the state’s desired line of
inquiry was more prejudicial than probative at that point in
trial and substained defense counsel’s objection.
The state again approached the bench and renewed its
request to present evidence concerning the Oct.19,2016,
counter-surveillance incident, on the basis that the defense
counsel open the door thru Carillo’s cross-examination over

7

defense counsel’s objection, the trial court ruled that the
state’s proposed evidence was admissible to rebut the
defensive theory implied by Carrillo’s testimony that
appellant was present at the day of the raid on June 2,2016,
only because Carrillo summonedhim to be there.
During Heith White Direct examination and over a
proper 404(b) objection White testified that he seen a ca with
two males and two females in it. The two females got out the
car and went inside suite 507. Then that car leaves and heads
to the parking garage located next to that place,White also
testified that a prositution arrest was made on the Oct. 19th,
2016 investigation, and that he did not take responsibility for
that arrest, but that H.P.D. did.
Afterwards the state calls Brian Nichols to testified again
to the events of Oct.2016, and also about the so-called
counter-surveillance that had previously been properly object
to by appellant’s attorney.
8

Officer Nichols testifiede that he was between a thousand
and 1500 feet away from suite 507 in a parking garage
conducting surveillance.
He then observed a black Cadillac pull up to suite 507 and
two females exited the vehicle and went inside. Within a few
minutes the black Cadillac pull in the same parking garage
where Nichols was located and was able to identified the
defendant in the passenger seat, but was unfamiliar with the
driver of the car. Somewhere in that time frame of just a
couple of minutes Nichols heard on the radio traffic that the
U.C. was done making his case and arrest team was arriving
at the time. He notice the black Cadillac fixing to leave be
cause he can see the brake lights come on, reverse light came
on. He then instructed the highway patrol trooper to move in.
Nichols testified based on his training and experience he
believed appellant conducting counter surveillance on that
day. He discribed counter surveillance as a person that
9

engaging in the contraband illegal activities efforts to detet
police presence or covert police presence, “its their effort to
avoid apprehension. This was clear violation of rule 404(b)
for it left the petitioner to defend himself over other bad acts
or crime for which he was not at trial for. The evidence of
Jimenez sitting in the parking lot (pejoratively called counter
-surveillance) had no relevance and could not assist the jury
in its determination of whether Jimenez committed the
aggravated offense of running a prostitution enterprise, and
had no relevance to any fact of consequence apart from its
tendency to prove cinduct in comformity with character. The
evidnce admitted at trial left devastatin impact on the Jury
dispostion towards the specificallycharged offense of June 22,
2016 and insteqad lead the Jury to focus events of Oct. 2016
and never charge of any wrong doing associated with a prosti
tution enterprise. During the punishment phase Nicholes was
called back to testify about events in Oct. 2016 he was
10

assisting H.P.D. Human Trafficking group with surveillance
on the location Nichols testified that on Oct. 2016 they were
unsuccessful in proving up the element of the offense of
aggravated promotion of prostitution or a prostitution
enterprise. After seeing Jimenez in the passenger seat of a
car. He decided to detain him. Jimenez was then arrested for
unlawful possession of firearm by felon. Nichols also testified
that Jimenez was not arrested for the offense of aggravated
promotion of prostitution on the Oct. 2016 event. The
evidence put forth by the State and admitted by the trial
court was not relevnt to the element of whether appellant
was controlling, supervising, or managing a prostitution
enterprise at the Hillcroft location. In Taylor V. State, 548
S.W.2d 723 (Tex.Cr.App. 1977), they applied the foregoing
rules of construction to section 43.04 and also defined
“prostitution enterprise” as “a plan or design for venture or
undrtaking in which two or more persons offer to, or engage
11

in sexual conduct in return for a fee payable to them.” I.d. at
723. Appellant shows tht on oct.2016 the evidence does not
reflect the criteria of the element for a prostitution enterprise
and so should had never been allowed in for it was highly
prejudicial. In Montgomery V. State, 810 S.W. 2d 372,391
(Tex.Crim.App. 1990) (on rehearing), appeals court held that
the trial judge must conclude that the evidence challenged
under Rule 404(b) tends in logic and common experience to
serve some purpose other than character conformity to make
the existence of a fact of consequence more or less probable
that it would be without the evidence. In Montgomery, this
court analyzed the newly enacted Rule 404(b) to determine
when an extraneous offense is admissible. Id. Appeals Court
has stated that extraneous offense is admissible in the state’s
case-in-chiefs in the following instancesThat is a “party” may introduce evidence of other crimes,
wrongs, or acts if such evidence logically servesto make more
12

or less probable an elemental fact. An evidentiary fact that
inferentially leads to an elemental fact, or defensive evidence
that undermines an elemental fact. Martin V. State, 173
S.W.3d.(Tex.Crim.App.l996). “Control, supervises, or
manages a prostitution enterprise” is an elemental fact that
the state is required to prove when they allege that a person
is a party to the offense, tex. Penal code Sec. 43.04(a). The
14th Court of appeals in Prieto V. State, 879 S,W. 2d
295(Tex.App.Houston [14th Dist] 1994-writ ref’d n.r.e.)
Summarized nicely the laws as to the admissibility of
extraneous offenses in the state’s case-in-chief citing the
courts decision in Montgomery: The test for the admssion of
extraneous offenses required the determination of the issues:
(l) whether the offense is relevant to a material issues in the
case, other than the defendant’s character, under Tex.R.
Crim.Evid404(b): and (2) whether the probative valve of the

13

extraneous offense is substantially outweigt by the danger of
unfair prejudice to the defendant. The erroneous admission
of the extraneous evidence allowed the jury to consider
prejudicial evidence in assessing appellants guilt. The
extraneous evidence was misleading as to appellants
involvement with a prostitution enterprise when indeed the
evidence on record shows that appellant was merely present.
It has also long been the law that mere presence at the scene
of an offense is not a crime.
In Sum, The Fourteen Court of Appeals failed to address
the negative implications of the extraneous offense evidence
and instead reiterated its belief that the extraneous offense
was relevant to the element of whether petioner was
controlling, supervising, or managing a prostitution
enterprise.
14

♦I

Conclusion
For the foregoing reasons, the petition should be granted
Resp

>y Submitted

y

Erik Jimenez, pro se
20826 Fox Trot Ct
Humble Texas 77338
jimenezErik7 4@mail.com

15

